No.

20-

IN THE
SUPREME COURT OF THE UNITED STATES

Warren Keith Henness

— PETITIONER

(Your Name)
VS.
Mike DeWine, et al.

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
䡺 Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
U.S. Court of Appeals for the Sixth Circuit; and
U.S. District Court for the Southern District of Ohio

䡺 Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
䡺 Petitioner’s affidavit or declaration in support of this motion is attached hereto.
䡺 Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
䡺 The appointment was made under the following provision of law:
28 U.S.C. § 1915

, or

䡺 a copy of the order of appointment is appended.

(Signature)

